MEMORANDUM

TO:            Mary Santonastasso, Director
               Division of Grants and Agreements

               Donna Fortunat, Director
               Division of Contracts, Policy, and Oversight

FROM:          Deborah H. Cureton
               Associate Inspector General for Audit

SUBJECT:       Audit Report No. 02-1001: National Consortium on Violence Research at
               Carnegie Mellon University, Award No. SES-9513040

        Please find attached our audit report on the National Consortium on Violence
Research at Carnegie Mellon University. Our review found the University’s accounting
system did not track its cost-sharing obligations adequately. Specifically, the system did
not segregate the University’s cost-sharing expenses from NSF costs. Therefore, in order
to determine its progress in meeting its cost-sharing obligations, the University had to
analyze each transaction at the end of the fiscal year. While the University ultimately
was able to support nearly all of its $6.8 million claimed costs, this year-end analysis was
both cumbersome and prone to error. As of June 30, 2000, the end date of our audit, we
identified $48,408 that the University had overcharged NSF. We also found that the cost-
sharing certifications in the annual progress reports were inaccurate, that the University
did not comply with federal requirements for reporting time and effort spent on awards,
that the PI spent less time on consortium research than was required, and that the
consortium did not meet NSF standards for subaward management.

        We recommended that the Directors of DGA and CPO work with the Office of
Naval Research, Carnegie Mellon University’s cognizant agency, to ensure that the
University’s accounting system segregates NSF and cost-sharing expenses, and that the
University establishes a time-and-effort certification system that complies with federal
requirements. We also recommended that the NSF Directors verify whether or not the
University has adjusted the amount of unbilled award costs by $48,408 to correct for its
overcharge, and ensure that the University complies with NSF’s cost-sharing certification
requirements and the terms of each award amendment, and that the consortium improves
its annual reporting of expenditures to NSF and its subrecipient award management.
         In response to our recommendations the University stated that it agreed and had
instituted changes to address all but the following recommendations: The University
concluded that its cost-sharing certification process complied with the Cooperative
Agreement, that its existing unwritten conflict-of-interest procedures was adequate, and
that it already required annual written progress reports. We disagreed with the University
and, therefore, reaffirmed our recommendations.

         Regarding other matters, we found that NCOVR had obligated and spent only
about half of the money provided specifically for research on violence in public housing
and that it spent less on research and more on administration than budgeted. Finally, SES
was interested in knowing how many different institutions had received NCOVR funding
and whether the consortium had realized NSF’s goal to “increase the participation of
underrepresented groups.” We found that the consortium made subawards to 36
institutions, including the University, and that 83 percent of its award recipients were
white and 83 percent were male.

         In accordance with OMB Circular No. A-50, Audit Followup, and NSF’s
Standard Operating Guidance 2001-4, Policies and Procedures for Audit Reports
Issuance and Resolution of Audit Findings Contained in Audits of NSF Awardees, we
request NSF’s Cost Analysis and Audit Resolution Branch coordinate its proposed
actions to address these recommendations with the OIG Office of Audits.

      If you have any questions about the report, please contact Mr. James Noeth at
703-292-5005.

Attachments

cc: Dr. Daniel Newlon, Division Director (Acting), SES
NATIONAL CONSORTIUM ON VIOLENCE RESEARCH




                   CARNEGIE MELLON UNIVERSITY
                            Pittsburgh, Pennsylvania




             From May 15, 1996 through June 30, 2000
EXECUTIVE SUMMARY

______________________________________________________
Purpose
           The National Science Foundation (NSF) Division of Social and Economic
           Sciences (SES) and the Division of Grants and Administration (DGA)
           asked the Office of the Inspector General (OIG) to address several issues
           of concern regarding an award to Carnegie Mellon University (CMU) for
           the National Consortium on Violence Research (NCOVR). Specifically,
           we were asked to review whether (1) CMU complied with the NSF award
           requirements in its accounting for NSF and cost-sharing expenditures; (2)
           there were adequate procedures and accountability for subrecipient
           management; (3) NCOVR spent $2 million for research on violence in
           public housing, as required by the Cooperative Agreement; (4)
           expenditures for administrative and research were consistent with the
           original proposal and the award agreement; and (5) NCOVR provided
           award funds to a diverse range of institutions and individuals across the
           country. Our review was conducted in response to this request.

Background

           NSF Cooperative Agreement SES-9513040 awarded $12.2 million over
           five years to CMU to support NCOVR. Including the nearly $3 million of
           required cost sharing, the total award amount was expected to be almost
           $15 million. The NSF portion of the funding included $2 million from the
           Department of Housing and Urban Development (HUD) for research
           related to violence in public housing. As of June 30, 2000, two months
           into the award’s fifth and final year, CMU had claimed expenditures
           approaching $6.8 million, or 56 percent, of the award.

           NSF has funded a total of 105 awards at CMU with expiration dates after
           August 1997, representing an investment of $89 million and $15 million
           of associated cost sharing.

Results in Brief

           CMU’s accounting system does not meet federal requirements for
           accurate, current and complete disclosure of the financial results of each
           federally sponsored project. CMU/NCOVR provided us four different sets


                                         i
of accounting records to support costs it claimed under its NSF award,
none of which agreed with any of the others. In addition, the summary
reports of cost-sharing expenditures did not agree with detailed supporting
records. Also, the NSF and cost-sharing amounts reported in the Fourth
Annual Progress Reports to NSF did not match actual expenditures for
prior years.

As a result of these accounting system inadequacies, CMU did not detect
variances between required and actual cost sharing at the times the
discrepancies occurred, and had to make many subsequent cost-sharing
adjustments. In addition, as of June 30, 2000, the amount of NSF-funded
expenditures reported to NSF was overstated by $48,408.

The accounting discrepancies occurred because CMU accumulated in one
account both expenditures funded by NSF and expenditures CMU paid for
as cost sharing. This commingling of expenditures occurred from the
beginning of the award until November 1999, when CMU converted to a
new accounting system. In addition, accounting records did not identify
cost-sharing amounts at the time the associated costs were incurred. Thus,
at the end of each fiscal year CMU had to review each individual
transaction in the combined account, separately identify costs funded by
CMU as cost sharing, and make a lump sum adjustment to place these
costs in a separate cost-sharing account. Even after the conversion to the
new accounting system, CMU had to make cost-sharing adjustments,
because of system transition problems and data corruption in the new
software. In making its cost-sharing adjustments CMU did not ensure that
each change was made to all affected reports, and thus these reports each
reported different cost-sharing amounts. Because this accounting system
affects all of CMU’s awards from NSF, CMU may have inaccurately
reported and claimed incurred and cost-sharing amounts on other of its
total $89 million in NSF awards expiring after August 1997.

In the review of the NCOVR award we also found that cost-sharing
certifications in the annual progress reports to NSF were inaccurate,
because they included obligated and estimated, as well as actual expensed
amounts, although CMU did not always achieve all of the estimated and
obligated cost sharing. The effect of certifying to incorrect amounts of
cost sharing is that NSF did not have accurate information regarding the
amount of actual cost sharing that CMU had provided at any point in time.
The fact that the progress reports were due before the end of the grant
years may have led NCOVR to include obligated and estimated amounts
as part of the reported cost sharing.




                              ii
                 Our review further showed that the Heinz School’s1 process of not
                 requiring the PI’s affirmative agreement with recorded time and effort
                 amounts spent on the NCOVR award did not comply with federal
                 requirements. As a result, inaccuracies in the reported time and effort
                 being cost shared had to be adjusted as much as a year after-the-fact. In
                 addition, other inaccuracies in the Heinz School’s labor cost system may
                 go undetected.

                 We also found that the PI spent 25 percent less time on NCOVR research
                 activities in Fiscal Years 1999 and 2000 than was required by the special
                 conditions in the Cooperative Agreement and its amendments. Thus, NSF
                 has less assurance that the intended scope of the research was fulfilled.
                 NCOVR overlooked the stated requirement for minimal time
                 commitments on the part of “key personnel,” and did not discover
                 variances in the effort-certification process. Nor did the CMU Office of
                 Sponsored Research, which had overall responsibility for the
                 administration of the award, detect the discrepancies.

                 In the area of subrecipient management we found that the processes used
                 to preclude conflicts of interest and to monitor subawards of more than
                 one-year duration did not meet the requirements of OMB Circular A-110.2
                 NCOVR had no written conflict-of-interest policy to ensure that a
                 reviewer of a subaward proposal had no personal or professional stake in
                 award evaluation and selection.         This deficiency reduces NSF’s
                 confidence that the most meritorious subaward candidates are selected
                 through an objective and unbiased process. Also, NCOVR’s proposal
                 guidelines did not require written annual progress reports in all subawards
                 lasting more than one year. Oral progress reports, although useful, do not
                 provide a written record comparable to the annual reports NSF requires of
                 its own awardees. The lack of a written progress report for any subawards
                 of more than 12 months duration reduces NCOVR’s and NSF’s ability to
                 monitor programmatic and compliance issues.

Recommendations
                 We recommended that the Directors of NSF’s Divisions of Grants and
                 Agreements (DGA) and Contracts, Policy and Oversight (CPO) work with
                 the Office of Naval Research (ONR), CMU’s cognizant agency, to ensure
                 that the university’s accounting system segregates NSF and cost-sharing
                 expenses, and that CMU establishes an affirmative time-and-effort
                 certification system that complies with federal requirements. We also
1
          The H. John Heinz III School of Public Policy and Management at CMU certified to the time and
effort of NCOVR personnel.
2
         See OMB Circular A-110, Subpart C, Section 42 (conflict of interest), Section 51 (reports and
records), and Subpart A, Section 5 (applicability of A-110 to subrecipients).



                                                     iii
                 recommended that NSF verify whether or not CMU has adjusted the
                 amount of unbilled award costs to NSF by $48,408 to correct for its
                 overcharges. In addition, we made a number of other recommendations to
                 ensure that CMU’s accounting system complies with applicable federal
                 regulations, and to improve NCOVR’s annual reporting of expenditures to
                 NSF, the accuracy of cost-sharing certifications, compliance with the
                 terms of each award amendment, and subrecipient award management.

CMU Response and OIG Comment
                 CMU stated that it has instituted changes to address three of our
                 recommendations.3 Therefore, we requested that the Directors of DGA
                 and CPO ensure that these changes adequately address our findings. CMU
                 disagreed with two of our recommendations. The university concluded
                 that its existing cost-sharing certification procedures complied with the
                 Cooperative Agreement, although Section B.3 of the Agreement
                 specifically requires CMU's certification of actual amounts of the prior
                 year’s cost sharing. We therefore reaffirmed our recommendation. With
                 regard to subrecipient monitoring, CMU stated that NCOVR’s unwritten
                 conflict-of-interest policies were adequate. However, we believe that
                 written conflict-of-interest policies ensure consistency when there are staff
                 changes and facilitate a thorough review of potential conflicts of interests
                 and adequate procedures to address conflicts that may occur. We again
                 reaffirmed our recommendation. CMU also said that NCOVR already
                 requires annual written progress reports for awards lasting more than one
                 year. However, we found that “Proposal Process,” the NCOVR guidelines
                 for research proposals, routinely requires only written final reports;
                 therefore, we modified our recommendation to ensure that NSF’s
                 Directors of DGA and CPO require NCOVR to state in its “Proposal
                 Process” the requirement to include annual, as well as final written
                 progress reports.

Other Matters
                 Our review also addressed three matters requested by NSF’s Division of
                 Social and Economic Sciences (SES). The NSF award to NCOVR
                 included $2 million of funds from the Department of Housing and Urban
                 Development (HUD) for research on violence in public housing. With
                 only ten months remaining before the intended expiration of the award on
                 April 30, 2001, NCOVR was unlikely to obligate or spend the large

3
          The text of CMU’s responses to our audit draft, except for attachments, appears in Appendix III.
In addition to responses to recommendations addressed below, CMU replied to other sections of the audit
report, and several of these responses were factually inaccurate. The attachments to CMU response and our
communications with CMU/NCOVR regarding the inaccuracies are available in the NSF Office of the
Inspector General.



                                                     iv
amounts necessary to utilize the remainder of the $2 million provided for
HUD to support research on violence in public housing. As of June 30,
2000, NCOVR had obligated $452,821 (23%) and spent $228,901 (11%)
on public-housing awards, according to SES criteria. Using NCOVR’s
own more expansive criteria, the consortium had obligated $738,655
(37%) and spent $393,914 (20%) of the $2 million.

NCOVR had not obligated or spent more of the $2 million on this research
because it did not understand that the $2 million of HUD money was to be
used solely to fund research on violence in public housing. Also, NCOVR
indicated that it did not want to obligate money on awards lacking in merit
just to use the funds and that its efforts to get access to data for a pending
initial $400,000 award in this research area have been slow.

Also, the actual outlays for administration and research activities of this
award did not agree with the original budgeted amounts. As of June 30,
2000, NCOVR had spent $1.7 million (23%) of the award funds on
administrative expenses, compared to the budgeted amount of $1.1 million
(11%); and it had spent and/or obligated $2.6 million (35%) funds on
subrecipient research, although it had budgeted $ 5.1 million (52%). As a
result, more NSF funds were spent on administration at the CMU campus
and less were used for research at other institutions than NSF had
anticipated.

Finally, in terms of institutional diversity, NCOVR had provided funds to
researchers at CMU and 35 other institutions. As for ethnic, cultural, and
gender diversity, we found that as of June 30, 2000, out of a total of 58
individuals who had received research funds, 83 percent were white and
83 percent were male.




                               v
                             Report Release Restriction

This report may not be released to anyone outside of the National Science Foundation
without the approval of the National Science Foundation Office of Inspector General,
except to an agency involved in negotiating or administering its awards. Information
contained in this report may be confidential. The restrictions of 18 U.S.C. 1905 should
be considered before this information is released to the public. Furthermore, information
contained in this audit report should not be used for purposes other than those intended
without proper consultation with the National Science Foundation, Office of Inspector
General regarding its applicability.
                                   CONTENTS

Executive Summary                                                        i

Introduction

      Background                                                        1
      Objective, Scope, and Methodology                                 2

Review Results
      CMU Accounting System Needs Improvement                            3
      Cost-sharing Certifications Were Inaccurate                        6
      CMU Time Keeping System Not in Compliance With OMB Requirements    8
      Cost Sharing for the Principal Investigator Less Than Required     9
      Subrecipient Award Management                                     10

Section III – Other Matters
       HUD Funds Have Not Been Fully Utilized                           12
       Actual Expenses and Obligations for Research and
          Actual Expenses for Administration Do Not Agree
          With Original Budgeted Amounts                                14
       Institutional Diversity                                          15
       Ethnic, Cultural, and Gender Diversity                           15


Appendix I: Table I Adjustments                                         17
Appendix II: Recipients of NCOVR Research Awards                        21
Appendix III: CMU’s Response to Draft Report                            22
                                     ACRONYMS

The following acronyms are used in this report:

CMU           Carnegie Mellon University
CPO           NSF Division of Contract, Policy and Oversight
DCAA          U.S. Department of Defense’s Defense Contract Audit Agency
DGA           NSF Division of Grants and Agreements
FCTR          Federal Cash Transaction Report
GC-1          General Grant Conditions (applies to all NSF grants)
HUD           U.S. Department of Housing and Urban Development
NCOVR         National Consortium on Violence Research
NSF           The National Science Foundation
OIG           NSF Office of the Inspector General
OMB           U.S. Office of Management and Budget
ONR           Office of Naval Research
PI            Principal Investigator
RIF           Research Initiation Funds
SES           NSF Division of Social and Economic Sciences
                                   INTRODUCTION

Background
        The National Consortium On Violence Research (NCOVR) is an
interdisciplinary, multi-institutional, research and training center located in the H. John
Heinz III School of Public Policy and Management (the Heinz School) at Carnegie
Mellon University (CMU) in Pittsburgh, Pennsylvania. In 1996 NSF awarded CMU
$12.2 million for five-years to fund the consortium. Including the nearly $3 million in
mandatory cost sharing, the total amount for this award was expected to be more than $15
million.

        As the official recipient of the NCOVR award (SBR/SES-9513040), CMU is
responsible for its financial accounting, with input from NCOVR and Heinz School staff.
NCOVR provides information on costs for research, equipment, and operations; and the
Heinz School provides information on personnel effort allocated to NCOVR and cost
sharing. Until 1999 CMU used an in-house accounting system, which combined the
NSF-funded portion of costs with cost-sharing costs provided by the university. On
November 1, 1999, three and a half years into the award, CMU converted from the in-
house accounting system to a commercial system (Oracle), which for the first time,
enabled the university to segregate the federal portion of award costs from cost sharing.
The new software made it possible in principle for CMU to identify cost-sharing entries
at the time the associated expense was incurred. However, in fact, the Oracle system
required some technical alterations, and adjusting entries continued to be required.

        During the period covered by this audit report, CMU maintained detailed
transaction and summary records, and NCOVR maintained its own accounting records.
The reporting and certification of cost sharing in the Annual Progress Reports, required
by NSF, did not rely on official CMU records, but on NCOVR and Heinz School records.
However, the NSF portion of NCOVR costs that CMU claimed for reimbursement on its
quarterly Federal Cash Transactions Report (FCTR) was based on CMU records. As of
June 30, 2000, the cut-off date of this audit, CMU had claimed costs of $6,791,425 (56%)
on its Federal Cash Transactions Report (FCTR) for the NCOVR award.

       NSF has provided funds to this university under 105 awards, including the
NCOVR award, with expiration dates after August 31, 1997. Total funding for these
awards is $89 million, with cost sharing of $15 million. The NCOVR award thus
represents about 14 percent of the total NSF funds committed to CMU and about 20
percent of cost sharing CMU has provided for these awards.




                                            1
Objective, Scope, and Methodology

       The objectives of our review were to determine whether (1) CMU complied with
the NSF award requirements in its accounting for NSF and cost-sharing expenditures; (2)
NCOVR had adequate procedures and accountability for subrecipient management; (3)
NCOVR spent $2 million for research on violence in public housing; (4) expenditures for
administrative and research were consistent with the original proposal budget and award
agreement; and (5) award funds were successfully provided to a diverse range of
individuals and institutions.

        The scope of the audit was developed in consultation with the NSF Divisions of
SES and DGA. The review covers the period from May 15, 1996, to June 30, 2000, a
timeframe representing all but the last 10 months of the award. During our review, we
were on site at CMU from November 6 to 17, 2000, and January 8 to 12, 2001. We
interviewed NSF, CMU, and NCOVR personnel, and reviewed CMU’s applicable
policies and procedures as they relate to the NCOVR award.

       To accomplish our objective regarding CMU’s accounting for costs, we verified
NSF and cost-sharing expenditures as stated in CMU’s accounting system and
determined whether or not CMU was in compliance with applicable federal guidelines,
Office of Management and Budget (OMB) circulars A-110,4 and A-21.5 We compared
claimed amounts of cost sharing with amounts reported in CMU’s accounting system,
and determined whether or not CMU was in compliance with NSF cost-sharing
requirements reflected in the Grant General Conditions (GC-1) and the Cooperative
Agreement and its Modifications. To accomplish the second objective, we interviewed
NCOVR’s Executive Director, and reviewed written guidelines for research proposals.
For the remaining three objectives, we provide audited data, as the NSF program office
requested, so that it would have information to facilitate decision making on the award.
We present the results of these three issues in the “Other Matters” section of our report.

       We conducted our review in accordance with the Comptroller General’s
Government Auditing Standards, and, accordingly included such tests of accounting
records and other auditing procedures that we considered necessary for the specific
circumstances to address the review objectives.




4
       The subject of OMB Circular A-110 is Uniform Administrative Requirements for Grants and
Agreements With Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations.
5
        The subject of OMB Circular A-21 is Cost Principles for Educational Institutions.



                                                   2
                               REVIEW RESULTS

CMU Accounting System Needs Improvement

        Federal guidelines require that recipients’ financial management systems shall
provide accurate, current, and complete disclosure of the financial results of each
federally sponsored project. This disclosure includes both the financial status of NSF
award funds as well as the awardee’s cost-sharing obligation. Contrary to these
requirements, CMU reported several different amounts for the NSF and the cost-sharing
portions of the award as of June 30, 2000. As a result, NSF cannot be sure CMU is
providing its proportionate share of project costs. The different amounts occurred
because the CMU accounting system combined project costs paid by NSF and CMU-
provided cost sharing in one account without separately identifying whether the costs
were paid by NSF or CMU. At the end of each fiscal year, CMU removed cost-sharing
amounts from the single account. Because costs were not identified as NSF or CMU-
provided cost sharing at the time the cost was incurred, the end-of-year entries were
frequently inaccurate, resulting in many subsequent cost-sharing adjustments. Even with
the new accounting system (Oracle), cost-sharing amounts were not accurate, since the
software needed modifications in order to function correctly.

                      Various CMU Accounting Records Did Not Agree

        OMB Circular A-110 states that recipients’ financial management systems shall
provide “[a]ccurate, current and complete disclosure of the financial results of each
federally sponsored project or program. . . .” In so far as this provision pertains both to
NSF-provided funds and to an awardee’s cost-sharing obligations, strong internal
controls require that an awardee should use separate accounts for its NSF costs and cost-
sharing costs. Without segregation of these two accounts, accurate, current, and complete
disclosure of the financial result of a federally sponsored program in the FCTR and in
Annual Progress Reports to NSF cannot be ensured.

        In conducting our audit of the NCOVR award, we found that CMU could not
readily or accurately disclose the status of either the NSF-awarded or the CMU-funded
expenditures, and that it did not segregate the NSF and cost-sharing portions of the
NCOVR award until about 70 per cent of the award period had elapsed. In particular, for
the audit period ending June 30, 2000, we were provided with four different amounts on
four different reports for total NSF award costs. NCOVR’s own accounts showed
$6,511,214, CMU’s Summary of Expenditures claimed $6,844,873 in NCOVR costs,
whereas the Transaction Detail of Expenditures showed $7,028,378. All of these
amounts differed from the FCTR, which reported $6,791,425. Similarly, the CMU
Summary of Cost Sharing differed from the CMU Transaction Detail of Cost Sharing:
The former showed $1,669,845, and the latter showed $1,486,282. In total, costs charged
to the NSF award varied as much as $517,164 among the four reports and as much as
$183,563 on the reported cost-sharing amounts.




                                            3
       Further, during the course of the audit, we received many revisions of both NSF
costs and of cost-sharing adjustments to reconcile variances among CMU and NCOVR
accounting records. In fact, we were provided with four revisions of the CMU
Transaction Detail of Expenditures, 10 revisions of the NCOVR Summary of
Expenditures, and nine spreadsheets and one subsequent modification showing prior
period cost-sharing adjustments to be done in FY 2001.

       Table I below shows the discrepancies among the accounting records and the
required adjustments necessary for reconciliation. With the adjustments, the amount of
the NSF portion of NCOVR costs as of June 30, 2000, is $6,743,017. The adjusted
amount of cost sharing after FY 2001 adjustments will be $1,995,741.6

                                      TABLE I
                          CMU’S Expenditures as of June 30, 2000

                                                       Originally     Adjustments         Adjusted Total
                                                       Reported
    NSF COSTS
    NCOVR Summary of Expenditures                   $6,511,214             $231,801            $6,743,015
    CMU Summary of Expenditures                     $6,844,873            ($101,856)           $6,743,017
    CMU Transaction Detail of Expenditures          $7,028,378            ($285,361)           $6,743,017
    FCTR                                            $6,791,425              ($48,408)          $6,743,017

    COST SHARING
    CMU Summary of Cost Sharing                        $1,669,845         $325,896 6           $ 1,995,741
    CMU Transaction Detail of Cost Sharing             $1,486,282         $509,459, 6          $ 1,995,741


        During the audit, NCOVR did not explain the discrepancy of $231,801 between
NCOVR’s original and final report of expenditures, and subsequently stated that the
variance reflects the omission of overhead charges for May and June 2000. However, we
were not able to verify these overhead expenses. The adjustments to the CMU accounts
resulted from overhead changes necessitated by a flaw in the new Oracle software and/or
cost sharing removed from (added to) one account but not from another. More complete
explanations of the adjustments in Table I appear in Appendix I to this report.

       In addition to these discrepancies our review disclosed, as shown in Table II, that
as of April 30, 1999, reported expenditures for grant years one, two, and three in the
Fourth Annual Progress Report understated actual expenditure amounts by $766,897.7


6
         The adjustment of $325,896 to cost sharing, incorporated in the summary and transaction detail
accounts, is based on CMU’s March 29, 2001 response to the discussion draft of this audit report. NSF has
not audited this adjustment and cannot verify its accuracy.
7
         Of the Annual Progress Reports submitted for years one, two, three, and four, only the Fourth
Annual Progress Report contained actual expenditure amounts. The other three reported actual and
obligated amounts together.


                                                   4
One reason for this discrepancy is that NCOVR did not update expenditures for years
one, two, and three in its Fourth Annual Progress Report, submitted in December 1999.

                                  TABLE II
                            NCOVR Expenditures:
       Fourth Annual Progress Report and CMU Summary of Expenditures

    Period of              NCOVR                CMU Summary of            Variance
   Performance          Fourth Annual            Expenditures
                        Progress Report
05/15/96-04/30/97         $ 713,111               $    708,777           $    4,334
05/01/97-04/30/98         $ 1,167,764             $   1,539,702          $ (371,938)
05/01/98-04/30/99         $ 1,635,001             $   2,034,294          $ (399,293)
Total                     $ 3,515,876             $   4,282,773          $ (766,897)

        As a result of the accounting deficiencies, CMU could not be sure it was
accurately reporting the financial status of its NSF award or its cost-sharing obligation.
Only through a rigorous, complicated, and time consuming analysis was the university
ultimately able to reconcile most of the differences between its accounting reports and
supporting records. This analysis indicated that CMU had overcharged NSF in the
amount of $48,408. Although this amount is not material, the significant effort required
to make this determination suggests CMU had major control weaknesses in its accounting
process. These internal control weaknesses could have resulted in higher overcharge
amounts on the NCOVR award, and, more importantly, could have resulted in
overcharges on other awards in the nearly $89 million of total NSF awards to CMU with
expiration dates after August 1997. In addition, the control weaknesses increase the risk
that CMU may not be properly accounting for the required $15 million of cost sharing on
these NSF awards.

         We believe that there are two primary causes of the variances in the CMU and
NCOVR accounting records. The first cause of the discrepancies is that for three and a
half years of the award, CMU accounting records did not segregate expenses funded by
NSF from those cost shared by CMU. In addition, records did not identify costs funded
by the university as cost sharing at the time the associated expenses were incurred. As a
result, in preparing the annual financial status reports to NSF, CMU had to review each
individual transaction in the combined account, separately identify those costs funded by
CMU as cost sharing, and make a lump sum adjustment to remove those costs to a
separate cost-sharing account.

        The second cause of the discrepancies among accounts is that CMU experienced
transition difficulties when it changed from the in-house accounting system to the Oracle
system in November 1999. The accounting records were partially on the old system,
which did not segregate NSF and cost-sharing costs, and partially on the new system,
which did segregate these costs. Reconciliation was cumbersome and difficult. Further,
the new Oracle system did not correctly compute subrecipient overhead costs that were to
be cost shared, and manual adjustments to the accounting records were necessary to


                                            5
correct errors resulting from this software flaw. The complexities associated with
reconstructing the cost-sharing account balance after-the-fact, required the numerous
revisions to the year-end adjustments. In addition, CMU did not consistently ensure that
the revisions were made to all of the affected reports. Therefore, each report reflected a
different amount depending on whether it contained the most recent revision.

Recommendations

        We recommend that the Directors of NSF’s DGA and CPO work with the Office
of Naval Research (ONR), CMU’s cognizant agency, to ensure that CMU’s accounting
system segregates NSF and cost-sharing expenses, that the Oracle system accurately
computes cost sharing and overhead on subcontracts in a timely manner so that manual
adjustments are not necessary, and that CMU’s accounting system otherwise complies
with federal requirements for “accurate, current, and complete disclosure” of the financial
results of federally sponsored programs. We also recommend that the Directors direct
NCOVR to update its reporting of prior years’ expenditures in its Annual Progress
Reports. In addition, we recommend that the Directors determine whether or not CMU
has credited the $48,408 overcharge to the award.

CMU Response

        CMU replied that the Oracle system allows automatic segregation of cost-shared
expenses, and that cost-sharing expenditures are now separately charged and accounted
for in a dedicated and unique cost-sharing account. The university said that the $48,408
“overcharge to NSF” consisted of post-period correcting adjustments, which were
subsequently credited to the award when the cost-sharing calculations were identified and
completed; and that therefore, there is no need to adjust the amount of unbilled award
costs by $48,408. Although it stated that all NSF funds were used for allowable project
expenses, CMU agreed that it would be better to do cost-sharing calculations
automatically or at least in a more timely manner, and that to avoid such errors in the
future the university now calculates these values monthly. CMU added that Oracle has
promised to have a system-wide software correction ready soon so that the manual work-
around will no longer be necessary.

OIG Comments

       We are pleased that CMU has taken actions to improve its accounting for cost
sharing. Based on CMU’s response to this report, we have modified our recommendation
to provide for NSF follow-up on the university’s implementation of these actions.

Cost-sharing Certifications Were Inaccurate

        The NSF Grant General Conditions (10/95), section 22 d, require that where the
cost sharing is $500,000 or more, an awardee’s “actual” participation in an award must be
documented on an annual and final basis, reported to NSF program managers in annual
and final progress reports, and certified by the authorized organizational representative.



                                            6
In addition, Cooperative Agreement, section III B 3, requires that the “Amount of
Previous Year’s Cost Sharing” must be similarly documented and certified.

        Cost sharing certified to NSF in the annual reports included expensed, obligated,
and estimated amounts; and CMU did not realize all of the estimated amounts. For
example, the Fourth Annual Progress Report certified $2.1 million in projected cost
sharing through April 30, 2000, whereas, according to the CMU Summary records, actual
cost sharing as of June 30, 2000 totaled $1.7 million, a $400,000 shortfall. As a result of
certifications of incorrect amounts of cost sharing in the annual reports, NSF program and
grants managers did not have accurate information regarding the amount of actual cost
sharing as of a given date. The fact that the progress reports were due before the end of
grant years led NCOVR to include obligated and estimated amounts as part of the actual
cost-sharing amounts. In addition, by relying on reporting guidance in Cooperative
Agreement, Section III C 1 c, which requires annual reporting of budget projections for
the upcoming project year, it overlooked the separate cost sharing reporting requirements
of Section III B 3, which requires annual certification of the amount of the previous
year’s cost sharing. Finally, CMU said that prior to the audit no one from NSF objected
to a certification on projected expenses.

Recommendations
        We recommend that the Directors of NSF’s DGA and CPO require CMU to
certify only actual cost-sharing amounts, as required by the Cooperative Agreement,
rather than estimated and obligated amounts.8

CMU Response

       CMU replied that the recommendation was to NSF, that if a change was made in
NCOVR’s Cooperative Agreement, it would comply; but that in the interim it would
continue to report as required by the Cooperative Agreement.

OIG Comments

        CMU’s response implies that the Cooperative Agreement does not mandate
certification of actual cost sharing. In fact, Section III B 3 requires the authorized
organizational representative to certify annually to: “Amount of Previous Year’s Cost
Sharing.” The amount of the prior year’s cost sharing will be an actual, not an estimated
amount. Therefore, we affirm our recommendation.




8
         This recommendation is premised on CMU’s ensuring that its detailed transaction and summary
records are accurate and that they agree.



                                                 7
CMU Time Keeping System Not in Compliance With OMB Requirements

        OMB Circular A-21 requires that the after-the-fact confirmation system for
payroll distribution must ensure in essence that “the costs distributed represent actual
costs.”9 OMB Circular A-21 also states that the signature or initials of the principal
investigator or the individual with primary responsibility for the financial management of
an award, or the use of a password, would “normally be sufficient” documentation.10

         However, CMU relied on a process of negative assurance to report its labor
charges on the NSF award, because it thought such a system met the requirements of
section J 8 of Circular A-21. The process consisted of monthly e-mails from a Heinz
School administrative associate to the PI in order to confirm the time and effort spent on
the NCOVR project. The PI responded only if a change was necessary. Although the
administrative associate had no first-hand knowledge of the accuracy of the allocated
effort, she frequently certified the time on the basis of no response from the PI. Without
an affirmative confirmation from the PI, CMU could not ensure the accuracy of its labor
effort allocations to the NSF award. In fact, our review identified two instances of
incorrect labor effort reporting. In the first case, 50 percent ($110,691) of the Research
Director’s FY 2000 effort plus associated fringe benefits and overhead, will be adjusted
as cost sharing in FY 2001, up to a year after the fact. In the second instance, CMU
claimed as cost sharing 1.4 months of the PI’s secretary’s time for all of FY 1997,
although the effort report indicated that she only spent .4 months on NCOVR. An
affirmative confirmation by the PI might have prevented such discrepancies.

Recommendations

        We recommend that the Directors of NSF’s DGA and CPO work with ONR to
ensure that CMU requires that its Schools with federally funded projects develop a time
and effort certification process requiring positive confirmation. We also request that the
Directors review CMU’s Labor Distribution Procedure Manual11 with ONR to ensure that
it requires after-the-fact confirmation by a person with actual knowledge of the time and
effort of all faculty and staff working on federally sponsored projects.

CMU’s Response

        CMU stated that it had revised its Labor Distribution Procedure Manual to
provide effort reports by employee, and to allow sufficient time for users to review
distributions and to submit adjustments prior to effort report creation. It said that it
continues to educate campus faculty and staff on the importance of timely and accurate
reporting and costing of their effort on sponsored research projects.

9
       OMB Circular A-21, Section J 8 b (2)(b).
10
       OMB Circular A-21, Section C 4 d (4).
11
       The revised CMU Labor Distribution Procedure Manual appears at:
       http://www.as.cmu.edu/~fmp/documentation/FMPDO070_LDM_official.pdf


                                                  8
OIG Comment

       The revised labor distribution procedures require the PI, who has actual
knowledge of employees’ effort on a given award, to review “Planned Effort by
Account” reports. The PI’s only required feedback consists of communication of
“changes” to this report. Subsequent to payroll distribution, a university business
manager, who has no actual knowledge, certifies after-the-fact to employees’ effort on
the award. Because there is no requirement that the PI affirmatively certify that the
planned effort is correct and the certifying official lacks actual knowledge, we do not
think CMU’s revised labor distribution procedures adequately address the requirements
of OMB Circular A-21, J 8. Therefore, we have expanded our recommendation to ensure
that CMU’s labor distribution procedures comply with federal requirements.

Cost Sharing for the Principal Investigator Less Than Required

        The Cooperative Agreement, section III D, as amended,12 required the PI to spend
75 percent of his time13on work for NCOVR. The Cooperative Agreement also stated
that NSF must be notified immediately of any changes in the time commitments of key
personnel and that any such change required the prior written approval of the NSF Grants
and Agreement Officer. Contrary to these requirements, the PI only spent 50 percent of
his time on NCOVR for FY 1999 and FY 2000;14 and CMU did not request written prior
approval for this 25 percent reduction in the PI’s effort.

        As a result, NSF was not aware that the PI had not met the required time
commitment and may not have taken all the necessary proactive measures to ensure that
the intended scope of the project was met. This reduced level of effort by the PI may
have contributed to the performance issues raised by NSF during the last reverse site visit
in December 2000. The site team consisting of six members recommended unanimously
that the NCOVR proposal be disapproved based, in part, on the “absence of clearly
articulated overall goals and a comprehensive conceptual framework for NCOVR’s
research . . . .”

        The PI stated that he did not know about the 75 percent time and effort
requirement for those two years. The Manager of the Office of Sponsored Research
stated that he always sent copies of award amendments to the NCOVR executive director,
financial and operations manager, and business manager. Thus, we conclude that the
NCOVR staff did not notify the PI about the time and effort requirement of the
amendments. In addition, the Office of Sponsored Research, which had overall
12
      See: Amendment Two (June 11, 1997), Amendment Three (September 26, 1997), and
Amendment Four (October 6, 1999).
13
        6.75/9 = 75.
14
        “Teaching Commitments/Cost-Sharing for Research NCOVR,” corrected 1/10/01, Heinz School
spreadsheet, NCOVR AY Commitments.xls.



                                                9
responsibility for the management of the award, did not detect the 25 per cent
discrepancy between the PI’s required and actual cost sharing for either year.

Recommendations

        We recommend that the Directors of NSF’s DGA and CPO require CMU to
ensure that its Office of Sponsored Research establishes and implements procedures to
monitor compliance with the terms and conditions of each award amendment, and
particularly the required time commitments of key personnel, at the time each
amendment is signed.

CMU Response

        CMU replied that currently the Office of Sponsored Research monitors
administrative and financial progress monthly, that it evaluates compliance with award
terms and conditions prior to close out, and that the new Oracle system will provide the
office with additional monitoring tools to ensure compliance throughout the award.

OIG Comment

       Since CMU has installed a new system that should facilitate compliance
monitoring, we recommend that NSF follow-up to ensure that CMU’s use of the Oracle
software fully addresses our recommendation.

Subrecipient Award Management

        In the area of subrecipient management we found that CMU’s processes to
preclude conflicts of interest and to monitor subawards of more than one-year duration
did not meet the requirements of OMB Circular A-110 or award requirements.15 In
addition, the process that NCOVR uses to prevent conflicts of interest is not as rigorous
as the process used by NSF in award evaluation and selection.16
15
          See OMB Circular A-110, Subpart C, Section 42 (conflict of interest), Section 51 (reports and
records), and Subpart A, section 5 (applicability of A-110 to subrecipients). Also, for NSF reporting
requirements, see Grant General Conditions (4/01) Section 14 a, stated as section 15a in the Grant General
Conditions of 10/95 and 10/98.
16
         For panel reviews, Program Officers or other responsible personnel must inform panelists of
potential conflicts-of-interest by reading the following statement at the beginning of the panel meeting:

                 If, when we come to consider any particular proposal, you recognize that
                 you could have a relationship with the organization or persons
                 submitting the proposal that could be construed as creating a conflict-of-
                 interest, please let me know. I’ll ask you to describe the relationship in
                 your own words and will determine from your description what to do
                 about the situation. You must not participate in reviewing any
                 application in which you or a member of your immediate family or any
                 organization of which you are or may become a part has a financial
                 interest. Otherwise, we’ll often just make a note in the file to consider
                 when making final recommendations.


                                                    10
        To avoid conflicts of interest, NCOVR asks members of the Advisory Committee
to be the primary reviewers of submitted proposals, since no Advisory Committee
members conduct NCOVR research.17 This process does not screen out Advisory
Committee members who may have undisclosed financial, organizational or personal
interests in potential subrecipients. Thus, the NCOVR conflict-of-interest process does
not ensure unbiased and objective selection of the most meritorious proposals.

        In addition, once an award is made, NCOVR frequently relies on oral
communication, such as telephone discussions, conversations at committee meetings and
conferences, and presentations at the annual summer workshops, to monitor the progress
of its subaward recipients. This process, although useful, does not provide a written
record comparable to the annual reports NSF requires of its own awardees. The result is
that neither NCOVR nor NSF has such a record to use in monitoring programmatic and
compliance issues for subawards lasting more than a year.

Recommendation

        We recommend that the Directors of NSF’s DGA and CPO require that NCOVR
adopt written conflict-of-interest policies and procedures for panelists participating in the
evaluation and selection of subrecipients. In addition, we recommend that the Directors
ensure that NCOVR include in its “Proposal Process” a written requirement that all
subrecipients with awards lasting more than one year submit annual written progress
reports.

CMU Response

        CMU replied that although it does not have a written conflict-of-interest policy, it
has followed NSF’s conflict-of-interest procedures. Citing NCOVR’s “Proposal
Process,” the university also stated that since the beginning of operations, the consortium
has in fact required annual written progress reports for all of its funded projects.

OIG Response

        Because a written conflict-of-interest policy ensures continuity when there is staff
turnover and facilitates a thorough review of potential conflicts of interests and adequate
procedures to address such conflicts should they occur, we reaffirm our recommendation
that NSF’s Directors of DGA and CPO require that NCOVR adopt written conflict-of-
interest policies for panelists participating in the evaluation and selection of
subrecipients. Also, NCOVR’s “Proposal Process” requires that persons who already
have received NCOVR funds submit a progress report on the prior award with any new
proposals. It also requires a written final report. However, it does not require written



17
         The Advisory Committee members are listed on the NCOVR website, which is at
http://www.ncovr.org


                                                11
annual progress reports for all awards lasting more than one year. Therefore, we have
modified our original recommendation to NSF to ensure that NCOVR states the
requirement for written annual progress reports in its “Proposal Process.”

                                  OTHER MATTERS

         As part of our audit, the NSF Division of SES asked us to provide information on
several issues for its use in administering the NCOVR award. Specifically, we were
asked to determine (1) whether $2 million of the HUD funds included in the NCOVR
award had been spent on the intended purpose of research into violence in public
housing, (2) the dollar amount and percentage of funds NCOVR had spent on
administrative as opposed to research costs, and (3) whether NCOVR had achieved
institutional, gender, ethnic, and cultural diversity in the selection of NCOVR
subrecipients to conduct research on violence. Each of these issues is discussed
separately below.

HUD Funds Have Not Been Fully Utilized

       Through an interagency agreement with HUD, NSF obligated $2 million to
NCOVR for research on violence in public housing. The Interagency Agreement stated
the purpose of the $2 million was:

                  To help support the establishment and operation of a National
                  Consortium devoted to violence research. This consortium
                  will consist of an interdisciplinary collaboration of
                  researchers from universities, research centers and other
                  institutions. The conducting of basic research on violence in
                  public housing will be an important facet of the consortium’s
                  work.

       The Cooperative Agreement stated that funding included:

                  $2,000,000 provided by the Department of Housing and Urban
                  Development to support research related to violence in Public
                  Housing.

         Table III shows that as of June 30, 2000, NCOVR had spent $228,901 (11%) and
obligated another $452,821 (23%) of the $2 million of HUD funding. These figures
include research that used the words “Public Housing” in the title, award, or abstract, the
criteria specified by the NSF program office.




                                            12
                                                TABLE III
                           Awards on Violence in Public Housing Research Listing
                             “Public Housing’ in the Title, Award, or Abstract

                                                                     Unobligated Fund     Unobligated Fund
                                                                          Balance              Balance
     Funds Obligated by     Funds Obligated by    Funds Expended      ($2 million funds    ($2 million funds
       NSF (HUD) for       NCOVR For Violence        By 6/30/00            minus                minus
      Violence in Public     in Public Housing     (Cost Sharing     funds obligated by   funds expended by
      Housing Research     Research By 6/30/00      Subtracted)           6/30/00)             6/30/00)

         $ 2 Million            $452,821             $228,901           $1,547,179           $ 1,771,099


       Table IV shows that using NCOVR’s own broader criteria, which counted not
only the above awards, but also awards “related” to public housing (“Public Housing”
and “Neighborhood Effects” awards), as of June 30, 2000, NCOVR had spent $393,914
(20%) and obligated an additional $738,655 (37%) of the $2 million for research on
violence in public housing.

                                           TABLE IV
                            Violence in Public Housing Research
              Including “Public Housing” and “Neighborhood Effects” in Awards

                                                                     Unobligated Fund     Unobligated Fund
                                                                          Balance              Balance
     Funds Obligated by    Funds Obligated by    Funds Expended By    ($2 million funds    ($2 million funds
       NSF (HUD) for       NCOVR for Violence         6/30/00              minus                minus
      Violence in Public    in Public Housing      (Cost Sharing     funds obligated by   funds expended by
      Housing Research     Research By 6/30/00      Subtracted)            6/30/00             6/30/00)

         $ 2 million            $738,655             $393,914           $1,261,345           $1,606,086


Thus using either criteria, less than one year before the award expiration date, NCOVR
had expended and obligated only about half of the $2 million of HUD funds.

        Further, NCOVR contends that the total amounts above should also include
allocations for $4,928,09018 of “Other Expenses,” such as education, outreach, the Data
Center, summer workshops, working groups, and administration. It states that research
on violence in public housing comprised 18 percent of all of its research costs as of June
30, 200019 and thus that 18 percent of all other expenses, or $887,056, should be added to

18
            We have not audited this amount and can not determine its accuracy.
19
          Using its own broader definitions of research on violence in public housing in Table IV, NCOVR
states that its total research obligations as of June 30, 2000 were $4,115,026. ($738,655/$4,115,026 =18%).

         The $4.1 million figure varies substantially from the $2.6 million amount of NCOVR expenses
and obligations for subcontracts and Research Initiation Funds, as of June 30, 2000, reported in Table V of
this report.


                                                        13
the totals. Although some portion of the costs20 of other NCOVR activities could be
allocated to research on violence in public housing, we do not agree with the dollar
amounts or percentages NCOVR has suggested. We conclude that as of June 30, 2000,
NCOVR had not spent or obligated sufficient HUD funds to assure NSF that it would be
able to fund $2 million of research in violence in public housing before the April 30,
2001 expiration date.21

        There were several reasons why NCOVR had not spent or obligated more of the
HUD money for research on violence in public housing. First, it did not understand that
in accordance with the Cooperative Agreement the $2 million from HUD was only to be
used for research on violence in public housing. Second, NCOVR did not want to make
awards that were not meritorious, just to use the HUD money. Third, NCOVR has been
trying to get access to data for a pending initial $400,000 award for research on violence
in public housing and neighborhood effects; and it has taken years to negotiate this issue.

Actual Expenses and Obligations for Research And Actual Expenses for
Administration Do Not Agree With Original Budgeted Amounts

         The NSF Program Office was concerned that NCOVR had spent less for research
and more for administration than expected and asked us to compare budgeted and actual
amounts for these two categories. Table V shows the fund status of the NCOVR award
together with a comparison of actual expenditures plus future obligations,22 and budgeted
amounts. As of June 30, 2000 NCOVR’s expenditures and obligations for Research
Initiation Funds and other subawards comprised 35 percent of its total expenditures and
obligations, although it had budgeted 52 percent for these two categories. In other words,
it spent and obligated 17 percent less on these research activities than it had planned. In
addition, NCOVR spent 23 percent of its total expenditures on administration, compared
to the budgeted amount of 11 percent. Thus it actually spent 12 percent more of its total
expenditures on administration than it had estimated.




20
        The amount of costs awarded to public housing research as of June 30, 2000 divided by the total
amount of NCOVR research costs is a reasonable allocation ratio.
21
         On March 14, 2001, Amendment 6 to the Cooperative Agreement extended the expiration date of
the NCOVR award from April 30, 2001 to April 30, 2003, and authorized the expenditure of year five
funds withheld under Amendment 5. According to the budget that NCOVR submitted to NSF by e-mail on
May 29, 2001 for years five and six, the consortium planned several research projects through April of
2003. However, the budget did not specify which of those projects pertained to research on violence in
public housing.
22
         The obligation amount of $688,778 for subcontractors and Research Initiation funds has not been
audited. CMU could not provide us with this obligation amount during our second site visit in January
2001.


                                                   14
                                                     TABLE V

                      NCOVR Expenses: Budgeted, and Actual and Obligated

  NCOVR            Budget       Actual      Obligated     Total:          Variance       Budgeted         Total         Variance
  Records                                                Actual +         Budgeted-       Percent       (Actual +       (Actual +
  Expense                                                Obligated          Total                       Obligated)     Obligated)
  Category                                                                                               Percent            -
                      (a)        (b)           (c)             (d)           (e)            (f)            (g)         (Budgeted)
                                                              b+c            a-d                                           (h)
                                                                                                                           g-f
                      ($)        ($)           ($)             ($)            ($)          (%)             (%)            (%)
Administration      1,089,031   1,681,174      N/A            1,681,174       -592,143            11             23            12
Education           1,697,227    877,522      N/A               877,522       819,705             17             12            -5
Communications       254,181     146,186      N/A               146,186       107,995              3              2            -1
Research Support     211,588     383,544       N/A              383,544       -171,956             2              5             3
Data Center          642,674     857,336       N/A             857,336        -214,662             7             12             5
Member
Interaction          684,987     803,044      N/A               803,044       -118,057             7             11             4
Research
Initiation/
Subcontractor23     5,086,112   1,893,955      688,778        2,582,743      2,503,369            52             35           -17
Equipment            200,000     100,255       N/A             100,255          99,745             2              1            -1
TOTAL               9,865,800   6,743,016      688,778        7,431,794      2,434,006            100            100            0
                                                                      Percents in columns f and g include slight rounding error.

  Institutional Diversity

           The NSF program office was interested in knowing how many different
  universities and institutions were represented in NCOVR’s research awards. We found
  that for subrecipients, Research Initiation Funds, and “NCOVR Direct Payments,”
  NCOVR had awarded funds to 36 universities and institutions, including CMU. The
  institutions are listed in Appendix II.

 Ethnic, Cultural, and Gender Diversity

          The NSF Program Solicitation stated that a goal of the consortium was
  participation of underrepresented groups in research on violence, and that special efforts
  should be made to include women and minorities, such as African Americans, Hispanics,
  and Native Americans. The Cooperative Agreement stated that one of the specific goals
  of NCOVR, from the outset was to “increase the capacity of historically underrepresented
  groups to conduct fundamental research on violence and related areas.” With regard to
  gender, Table VI shows that as of June 30, 2000, out of a total of 58 individuals
  (subrecipients, and recipients of Research Initiation Funds and NCOVR Direct
  Payments), 10 (17%) were female and 48 (83%) were male.


  23
              NCOVR uses the word subcontract to refer to its subawards of NSF funds.


                                                         15
                                    TABLE VI
                         Gender Diversity in NCOVR Awards

          Gender                       Number                  Percent of Total (%)
 Female                                  10                            17%
 Male                                    48                            83%
 Total                                   58                           100%

       The ethnic and cultural composition, as shown in Table VII, indicates that of the
58 subrecipients and recipients of Research Initiation Funds and NCOVR Direct
Payments, there was one Asian (2%), four Hispanic (7%), five African-American (9%)
and 48 White Americans (83%).

                                     TABLE VII
                   Ethnic and Cultural Diversity in NCOVR Awards

          Race                         Number                  Percent of Total (%)
African American                                        5                          8%
White                                                  49                         83%
Hispanic                                                4                          7%
Asian                                                   1                          2%
TOTAL                                                  58                        100%




                                          16
                                     Appendix I

                Explanations of Adjustments Required
        For the NSF Portion and CMU Portion (Cost Sharing)
                      of NCOVR Project Costs
                         as of June 30, 2000
        Table I of the audit report (p. 4) presented summaries of four accounts of NSF
costs, two records of cost-sharing amounts, and the adjustments needed to all six of these
accounts. This appendix explains each of the adjustments. After these modifications, the
amount of the NSF portion of NCOVR costs as of June 30, 2000, is $6,743,017, and the
amount of cost sharing after FY 2001 adjustments will be $1,995,741.

NSF Portion of Project Costs
       The NSF costs in four accounts did not reconcile. These four accounts are: 1)
NCOVR Summary of Expenditures, 2) CMU Summary of Expenditures, 3) CMU
Transaction Detail of Expenditures, and 4) the June 30, 2000 FCTR.

       NCOVR Summary of Expenditures

       The amount of the NSF portion of project costs originally reported in the NCOVR
Summary of Expenditures was $6,511,214. The amount reported in the last NCOVR
Summary of Expenditures was $6,743,015, an increase of $231,801. Although we asked
for an explanation of this $231,801 variance, NCOVR was never able to explain the
discrepancy during the audit. It subsequently stated that the variance was due to the
omission of overhead charges for May and June 2000, which were not included in
NCOVR’s original calculation. However, we were not able to verify this $231,081 of
overhead expenses. The $231,801 adjustment will reconcile NCOVR expenditures with
CMU accounting records, once other adjustments in Table I are also completed.


                         NCOVR Summary of Expenditures

   Originally Reported                Adjustment                   Adjusted Total
       $6,511,214                      $231,801                     $6,743,015

       CMU Summary of Expenditures

        The CMU Summary of Expenditures and the Transaction Detail of Expenditures
also needed adjustments to reconcile with each other and with the other two reports of
NSF costs. The adjustment to the CMU Summary of Expenditures required the
subtraction of $101,856 from the $6,844,873 originally reported. This adjustment
resulted from corrections to overhead amounts charged prior to June 30, 2000.


                                           17
According to a January 20, 2001, CMU spreadsheet,24 $103,591 of overhead charged to
the project but not cost shared in FY 2000, due to an Oracle software error, will be
deducted from the NSF NCOVR account in FY 2001. However, $1,735 of travel and
consulting overhead cost will be added in that fiscal year, due to the same Oracle error.
Thus, the net adjustment to the CMU Summary of Expenditures is $101,856. ($103,591-
$1,735 = $101,856). With the subtraction of $101,856 from the $6,844,873 originally
reported, the adjusted total of the NSF portion of project costs in the CMU Summary of
Expenditures is $6,743,017.

                                CMU Summary of Expenditures

     Originally Reported                     Adjustment                         Adjusted Total
         $6,844,873                          ($101,856)                          $6,743,017

        CMU Transaction Detail of Expenditures

         The CMU Transaction Detail of Expenditures originally reported $7,028,378 of
NSF project costs as of June 30, 2000.25 This amount required adjusting subtractions
totaling $285,361, comprised of two parts. The first part is the $101,856 corrected
overhead amount, also deducted from the CMU Summary of Expenditures. The second
part is $183,505, an amount of cost sharing which was removed from the CMU Summary
of Expenditures but not from the Detail Transactions account. ($101,856 + $183,505 =
$285,361). With the subtraction of $285,361 from the CMU Transaction Detail of
Expenditures, the amount of the NSF portion of costs is $6,743,017, which reconciles
with the adjusted amount in the CMU Summary of Expenditures.

                                    CMU Transaction Detail of Expenditures

     Originally Reported                     Adjustment                         Adjusted Total
         $7,028,378                          ($285,361)                          $6,743,017

        FCTR of June 30, 2000

       The amount of the NSF portion of project costs which CMU reported to NSF on
the June 30, 2000, FCTR was $6,791,425.26 This amount was overstated (NSF was
overcharged) by $48,408 according to the adjusted expenditure amounts reported by
CMU and NCOVR. Thus, the FCTR amount should have been $6,743,017 ($6,791,425 -
$48,408).
24
        NCOVR NSF Expenditures.xls, 1/30/01, page 2 of 2. We have not verified all the corrections to
be made in FY 2001
25
         CMU replied that the total $7,028,378 included, per NSF’s request, all project expenses, which
included both NSF expenses and cost sharing expenses.
26
          CMU stated that at the time the FCTR was submitted, the amount reported did reflect exactly what
was reported on CMU’s financial statement, and that the resultant difference was caused by subsequent
retroactive expenditure reallocations and June 30, 2000 post closing adjustments.


                                                    18
                 NSF Portion of Costs Reported on June 30, 2000 FCTR

     Originally Reported                    Adjustment                       Adjusted Total
         $6,791,425                          ($48,408)                        $6,743,017

Cost Sharing (CMU Portion of Costs)

        CMU Summary of Cost Sharing

        Regarding cost sharing, as of June 30, 2000, the CMU Summary of Cost Sharing
originally reported $1,669,845. This amount must be revised upward by $325,896,
according to CMU’s March 30, 2001 cost-sharing revision.27 This adjustment consists of
prior period cost-sharing adjustments to be made in FY 2001, as itemized below:

                           Prior Period Cost-sharing Adjustments
                                  To Be Made in FY 2001

Overhead on subrecipient costs incurred prior to June 30, 2000                        $103,591
Cost sharing of 50 percent of a key professor’s FY 2000 effort                        $110,691
Other subrecipient overhead incurred prior to June 30, 2000                           $ 93,445
FY 2000 cost-sharing entry mistakenly posted to FY 2001                               $ 18,169
Total Adjustment                                                                      $325,89628

With the $325,896 adjustment, the June 30, 2000 CMU Summary of Cost Sharing will be
$1,995,741. ($1,669,845 + $325,896 = $1,995,741).


                               CMU Summary of Cost Sharing

     Originally Reported                    Adjustment                       Adjusted Total
         $1,669,845                          $325,896                         $1,995,741



        CMU Transaction Detail of Cost Sharing



27
         Letter to Ms. Bandana Sen, Office of the Inspector General, NSF, March 29, 2001, page 4. We
have not verified the accuracy of these expenses.
28
         Although these amounts were not removed from the NSF portion of expenses (and cost shared) as
of June 30, 2000, CMU has stated its intention of making these adjustments.



                                                  19
       The amount of cost sharing as of June 30, 2000, originally reported in the CMU
Transaction Detail was $1,486,282. This amount requires two adjustments to reconcile
with the CMU Summary of Cost Sharing. The first adjustment is the addition of
$183,563, which represents the amount of cost sharing deducted from the CMU
Summary of records but not from the CMU Transaction Detail records.29 The second
addition is for the $325,896 of cost-sharing adjustment to be made in FY 2001, itemized
above. After these adjustments, the amount of cost sharing reported on the CMU
Transaction Detail of Cost Sharing will reconcile with the amount reported on the CMU
Summary of Cost Sharing. ($1,486,282 + $183,563 + $325,896 = $1,995,741).

                              CMU Transaction Detail of Cost Sharing

     Originally Reported                    Adjustment                        Adjusted Total
         $1,486,282                          $509,459                          $1,995,741




29
         The difference between cost sharing as of June 30, 2000, reported in the CMU Transaction Detail
and the CMU Summary is $183,505 ($7,028,378 - $6,844,873 = $183,505), an amount virtually identical to
the $183,563 variance between cost sharing reporting in the CMU Summary and Detail cost-sharing
records ($1,669,845 - $1,486,282 = $183,563). In other words, it appears from both the NSF costs and
cost-sharing accounts that approximately $183.5 thousand of cost sharing was deducted from the NSF costs
in the Summary records but not from the Detail records, or that the Transaction Detail did not capture
adjustments that transferred costs to cost-sharing accounts.



                                                  20
                                   Appendix II

                 Recipients of NCOVR Research Awards
       The list of the universities and institutions which were represented in NCOVR’s
research awards, in addition to CMU, include:

       The American Bar Association
       Rand Corporation,
       The Illinois State Police
       National Development and Research Institutes
       Vanderbilt University,
       Temple University,
       The University of Chicago
       The University of Connecticut Research Foundation
       The University of Delaware
       The University of New Mexico
       The University of Washington
       The University of Illinois
       Colgate University,
       The University of Michigan
       The University of California
       New York University
       UCLA
       Georgia State University
       Columbia University
       Duke University
       Georgetown University
       Harvard University
       Ohio State University
       Pennsylvania State University
       The University of Pittsburgh
       The University of the State of New York at Albany
       The University of Kentucky Research Foundation
       The University of Maryland
       The University of Wisconsin-Madison
       The University of Missouri-St. Louis
       The University of Montreal
       The University of Toronto
       The University of Nebraska-Omaha
       The University of Texas at Dallas
       The New Jersey Institute of Technology




                                         21
     APPENDIX III




23
.24
     APPENDIX III




25
     APPENDIX III




26
     APPENDIX III




27
28
     APPENDIX III




29
     APPENDIX III




30
     APPENDIX III




31
     APPENDIX III




32
     APPENDIX III




33
     APPENDIX III




34
     APPENDIX III




35
     APPENDIX III




36
     APPENDIX III




37
                                                                            APPENDIX III




. Review Results

 Statement 20, Page 4: "Further, during the course of the audit, we received many
 revisions of both NSF costs and of cost sharing adjustments to reconcile variances among
 CMU and NCOVR accounting records. In fact, we were provided with four revisions of the
 CMU Transaction Detail of Expenditures, 10 revisions of the NCOVR Summary of
     APPENDIX III




39
     APPENDIX III




40
